<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                           VARIOUS MEASURES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

             H.R. 1918, H.R. 2061, H.R. 2408, H. Res. 128,
          H. Res. 259, H. Res. 311, H. Res. 357, H. Res. 359,
                            and H. Res. 449

                               __________

                             JULY 27, 2017

                               __________

                           Serial No. 115-56

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]      
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                  ______
                                
                                 
                                 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
26-428PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="96f1e6f9d6f5e3e5e2fef3fae6b8f5f9fbb8">[email&#160;protected]</a>                                  
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP ON

H.R. 1918, To oppose loans at international financial 
  institutions for the Government of Nicaragua unless the 
  Government of Nicaragua is taking effective steps to hold free, 
  fair, and transparent elections, and for other purposes........     2
  Amendment in the nature of a substitute to H.R. 1918 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida...........................    18
H.R. 2061, To reauthorize the North Korean Human Rights Act of 
  2004, and for other purposes...................................    30
  Amendment in the nature of a substitute to H.R. 2061 offered by 
    the Honorable Ted S. Yoho, a Representative in Congress from 
    the State of Florida.........................................    37
      Amendment to the amendment in the nature of a substitute to 
        H.R. 2061 offered by the Honorable Ted S. Yoho...........    45
H.R. 2408, To enhance the transparency, improve the coordination, 
  and intensify the impact of assistance to support access to 
  primary and secondary education for displaced children and 
  persons, including women and girls, and for other purposes.....    49
H. Res. 128, Supporting respect for human rights and encouraging 
  inclusive governance in Ethiopia...............................    56
  Amendment in the nature of a substitute to H. Res. 128 offered 
    by the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................    66
      Amendment to the amendment in the nature of a substitute to 
        H. Res. 128 offered by the Honorable Christopher H. Smith    72
H. Res. 259, Expressing concern and condemnation over the 
  political, economic, social, and humanitarian crisis in 
  Venezuela......................................................    73
  Amendment in the nature of a substitute to H. Res. 259 offered 
    by the Honorable Ron DeSantis, a Representative in Congress 
    from the State of Florida....................................    79
H. Res. 311, Recognizing that for 50 years the Association of 
  South East Asian Nations (ASEAN) has worked toward stability, 
  prosperity, and peace in Southeast Asia........................    87
  Amendment in the nature of a substitute to H. Res. 311 offered 
    by the Honorable Joaquin Castro, a Representative in Congress 
    from the State of Texas......................................   100
H. Res. 357, Reaffirming the strategic partnership between the 
  United States and Canada, recognizing bilateral cooperation 
  that advances United States national interests, and urging 
  increased bilateral cooperation on security, economic issues, 
  and energy, and for other purposes.............................   105
  Amendment to H. Res. 357 offered by the Honorable Jeff Duncan, 
    a Representative in Congress from the State of South Carolina   109
H. Res. 359, Urging the European Union to designate Hizballah in 
  its entirety as a terrorist organization and increase pressure 
  on it and its members..........................................   112
  Amendment to H. Res. 359 offered by the Honorable Theodore E. 
    Deutch, a Representative in Congress from the State of 
    Florida......................................................   118
H. Res. 449, Urging the Government of Kenya and Kenya's political 
  parties to respect democratic principles and hold credible, 
  peaceful, and transparent elections in August 2017.............   122

                                APPENDIX

Markup notice....................................................   148
Markup minutes...................................................   149
Markup summary...................................................   151

 
                            VARIOUS MEASURES

                              ----------                              


                        THURSDAY, JULY 27, 2017

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order.
    Pursuant to notice, we meet today to mark up nine 
bipartisan measures and, without objection, all members may 
have 5 days to submit statements or extraneous materials on 
today's business.
    As members were notified yesterday, we intend to consider 
today's measures en bloc and so, without objection, the 
following items previously provided to members and also in your 
packets will be considered en bloc and are considered as read.
    We have H.R. 1918, this is the Nicaraguan Investment 
Conditionality Act with the Ros-Lehtinen Amendment 33 in the 
nature of a substitute; we have <greek-l>the  deg.H.R. 2061, 
the North Korea Human Rights Reauthorization Act, with Yoho 
Amendment 60 in the nature of a substitute and Yoho Amendment 
58 to Amendment 60; we have H.R. 2408, Protecting Girls' Access 
to Education in Vulnerable Settings; we have House Resolution 
128, Supporting respect for human rights in Ethiopia, with the 
Smith Amendment 48 in the nature of a substitute and Smith 
Amendment 49 to Smith Amendment 48; we have House Resolution 
259, Condemning the crisis in Venezuela with the DeSantis 
amendment in the nature of a substitute to House Resolution 
259; House Resolution 311, Recognizing the work of ASEAN 
nations with the Castro amendment in the nature of a substitute 
to the House resolution; we have House Resolution 357, 
Reaffirming the U.S.-Canada partnership with Duncan Amendment 
29; House Resolution 359, Urging the EU to designate Hezbollah 
as a terrorist organization with Deutch Amendment 27; and, 
lastly, House Resolution 449, Urging peaceful and transparent 
elections in Kenya.
    [The information referred to follows:]<greek-l>H.R. 
1918 deg.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Royce. I now recognize myself to speak on today's 
business.
    I recognize here the good work of Representative Deutch on 
this House Resolution 359. This urges the European Union to 
designate Hezbollah as a terrorist organization. Hezbollah has 
one leadership, fungible finances, and a singular hostile 
mission. All its branches and operations serve its terrorist 
agenda and it is dangerous to try and distinguish among its 
arms. We must work with our allies to deprive this terrorist 
organization of its financial support and its logistical 
support.
    H.R. 2061 reauthorizes important provisions of the North 
Korea Human Rights Act. This is the decades-old U.S. 
humanitarian policy that provides much needed assistance to 
North Korean defectors and to refugees.
    It also promotes freedom of information inside North Korea 
through radio broadcasting, an issue on which this committee 
has a long history of promoting critical reforms. As the Kim 
regime desperately tries to preserve its monopoly on 
information, these broadcasts are critical to empowering the 
people of North Korea, and I want to thank Chairman Emeritus 
Ros-Lehtinen and Asia Subcommittee Chairman Yoho for their work 
on this bill's provisions.
    House Resolution 311 recognizes the growing importance of 
the ASEAN nations. For 40 years, the U.S. has expanded its 
cooperation with this collection of 10 Southeast Asian nations. 
It has a combined economy of $2.5 trillion. Southeast Asia 
represents a major opportunity for strengthening U.S. commerce 
and security interests across that region.
    On the other side of the globe, the situation in Venezuela 
continues to deteriorate and President Maduro continues to dig 
in with plans to rewrite Venezuela's constitution and give 
himself full dictatorial powers. This would undo any semblance 
of democratic order.
    I want to thank Mr. DeSantis for his leadership on House 
Resolution 259, which echoes strong words and actions from the 
administration including yesterday's sanctions--these are 
sanctions on certain individuals in Venezuela who are part of 
that dictatorship--to warn Maduro against his illegal efforts 
to rewrite the constitution.
    As we look at the crisis in Venezuela, we must be mindful 
that Nicaraguan President Daniel Ortega has been decidedly 
unhelpful to regional efforts to respond. Indeed, he has been 
among the corrupt few trying to bolster President Maduro, not 
to mention pursuing his own undemocratic consolidation of power 
at home.
    So I want to thank Chairman Emeritus Ros-Lehtinen for 
authoring H.R. 1918. This measure requires U.S. representatives 
to international financial institutions to oppose any loan that 
benefits the Government of Nicaragua unless we can certify that 
Nicaragua is taking steps to reestablish free and transparent 
elections and respect basic human and democratic rights.
    I want to thank Chairman Duncan of the Western Hemisphere 
Subcommittee for his leadership on these measures and his 
resolution reaffirming the U.S. Canada relationship. Canada 
continues to be one of our most important allies and a vital 
trading partner, and House Resolution 357 encourages even 
greater commercial collaboration.
    Mr. Duncan will be leading a delegation of lawmakers to 
Canada in September for the U.S.-Canada IPG. So we wish him 
well.
    I am also proud to support Representative Chabot's bill to 
protect girls' access to education in vulnerable settings. With 
many developing countries hosting large numbers of refugees for 
longer stretches of time, we are seeing a concerning trend of 
more children out of school due to conflict. These children, 
and girls in particular, face an increased risk of exploitation 
and less hope for their future.
    So I am pleased to support H.R. 2408, which authorizes U.S. 
support for improving girls' access to education in conflict 
settings.
    I also want to thank Mr. Smith, chairman of the Africa 
Subcommittee, for his work on House Resolution 128. While we 
recognize our longstanding partnership with Ethiopia, we must 
also stress the importance of that government's respect for 
human rights and democratic principles, including the need for 
Ethiopia to take tangible steps to ensure opposition voices are 
protected, are respected, and are welcomed.
    And I would also like thank my colleague, Representative 
Coffman, for his dedication and leadership in ensuring that 
this resolution be considered today.
    And, lastly, I want to thank Ranking Member Engel for his 
timely resolution underscoring the importance of Kenya's 
upcoming elections. As a critical leader in the region, this 
election holds important significance as an example for other 
African countries with their upcoming elections.
    I understand two of our colleagues--Representative Bass and 
Representative Frankel--will travel to observe these elections 
next month, and we look forward to monitoring the results and 
wish Kenya the best as they prepare for this momentous 
occasion.
    I now recognize our ranking member, Mr. Engel, for his 
remarks.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
the markup. We have a number of good bipartisan measures and I 
am glad to support all of them.
    I would like to start with the measure I authored which 
sends a strong message as Kenya prepares for its next elections 
and I am grateful to you, Mr. Chairman, for bringing this 
resolution up today. I also am grateful to Mr. Smith of New 
Jersey and Ms. Bass of California, the chair and ranking 
members of the Africa Subcommittee, who are lead co-sponsors of 
this legislation.
    Kenya is an important partner of the United States. This is 
a country that promotes regional stability and serves as an 
economic and humanitarian hub for East Africa. We want Kenya to 
remain strong and that's why the State Department and USAID 
have long supported credible, open elections in that country.
    This has been a challenging time for Kenya. A decade ago, a 
wave of violence following elections and, in 2013, troubling 
irregularities plagued the voting process there.
    In advance of the election scheduled for August 8th, this 
resolution calls upon Kenya to hold credible, peaceful, free, 
and fair elections and condemn in the strongest terms hate 
speech and the incitement of violence by political candidates, 
the media, or any Kenyan citizen.
    It also calls upon the United States and Kenya's other 
international partners to continue to support Kenya's efforts 
to address the remaining electoral preparation challenges and 
to identify gaps where additional resources or diplomatic 
engagement could make important contributions to the conduct of 
the elections.
    This measure isn't about taking sides in Kenya's politics 
but instead reaffirms the importance of our partnership with 
Kenya and our support for the people of that country as they go 
to the polls.
    I wish Ms. Bass and Ms. Frankel well. I am proud that they 
are representing us during that election and I ask all members 
to support this resolution.
    I would like to say a few words about some other measures 
we are conducting today. I am proud to be an original co-
sponsor of the North Korean Human Rights Act introduced by my 
friend, Representative Ros-Lehtinen. This measure authorizes 
the current law until 2022, extending American efforts to 
promote the human rights of North Koreans and making important 
adjustments to U.S. broadcasting and other efforts to get 
unbiased information in to the people of North Korea.
    These are timely changes as we are all very concerned by 
North Korea's advancing weapons capability. I know the chairman 
has done a lot of work with Korea. I have been there twice. I 
don't think we are going to go in the short future. But I am 
glad to support this measure. I think it sends a very strong 
message to the North Korean regime.
    I am also glad to support another resolution from Chairman 
Smith calling on authorities in Ethiopia to lift the state of 
emergency and end the excessive use of force by Ethiopian 
security forces, urging protestors to refrain from violence, 
and calling on the administration to hold accountable 
individuals responsible for gross human rights violations.
    I am grateful to Mr. DeSantis for his resolution 
highlighting the devastating political, economic, and 
humanitarian prices in Venezuela. With its massive energy 
resources, Venezuela should be one of the wealthiest countries 
in the world.
    It marks a profoundly sad day when our Congress and others 
and the international community must consider how to most 
effectively provide food and medicine to the Venezuelan people.
    But that's the deeply troubling record of the Maduro 
government, and we have all been very vocal on that, Ms. Ros-
Lehtinen probably the most vocal and right on the money, so the 
speak, through the years by talking about Maduro and his 
predecessor, Mr. Chavez, both of whom have run that country and 
are running that country to the ground.
    Chairman Duncan of our Western Hemisphere Subcommittee has 
offered a good resolution reaffirming the strategic partnership 
between the United States and Canada. I am particularly pleased 
that this resolution takes note of extensive cooperation 
between our two countries within NATO at a time when our own 
administration has questioned the importance of this alliance.
    Next, I would again like to thank Representative Ros-
Lehtinen and also Representative Sires for introducing the 
Nicaraguan Investment Conditionality Act, also known as the 
NICA Act.
    President Ortega and his lackeys have shown zero regard for 
democracy and the rule of law in Nicaragua. This legislation is 
an important step in holding the Nicaraguan Government 
accountable by opposing loans to these corrupt leaders while 
taking precautions not to make things worse for the many 
Nicaraguans who are already suffering in what is the second 
poorest country in the Western Hemisphere.
    I remember when I was the chairman of the Western 
Hemisphere Subcommittee and we visited Ortega in Nicaragua, and 
we knew there were problems then. There are certainly even 
greater problems now.
    I am also glad to support a measure by Mr. Deutch of 
Florida urging the EU to name the Hezbollah organization as a 
terrorist organization and put greater pressure on Hezbollah 
fund-raising within Europe.
    In July 2013, the European Union announced that it would 
consider the military wing of Hezbollah as a terrorist 
organization after a spike of terrorist activity in Europe.
    This came after a wave of attacks and attempted attacks 
perpetrated by Hezbollah in Europe. The United States does not 
make the distinction, and rightfully so, between the military 
and political wings of Hezbollah and, frankly, neither does 
Hezbollah. We consider the whole organization to be a terrorist 
organization and the European Union should do the same.
    I appreciate Representative Castro and Wagner's leadership 
on the Association of Southeast Asian Nations, which we call 
ASEAN, both in offering this measure and launching the 
Congressional ASEAN Caucus. This resolution recognizes the 50 
years ASEAN has promoted stability, prosperity, and peace in 
Southeast Asia and underscores why this institution and, most 
importantly, the countries that make it up, matter to America's 
economy and security.
    And lastly, I am glad to support a bill by Representatives 
Chabot and Kelly to help improve access to education to 
displaced children, especially girls.
    Around the world, nearly 4 million displaced children don't 
have access to public education. We know, obviously, this 
disadvantage can set these young people back for the rest of 
their lives. So this bill would make it a priority for the 
State Department and USAID to work with multilateral 
organizations with civil society and with private sector 
partners to help these vulnerable young people access education 
and get on a better path forward.
    I am grateful to both of my colleagues for introducing this 
measure and I am grateful to members on both sides of the aisle 
for all their hard work, their willingness to collaborate, and 
their commitment to advancing good, bipartisan legislation that 
enhances American leadership and security.
    Mr. Chairman, this has been a hallmark of our committee 
under your leadership and I am delighted to play a part in it.
    Thank you. I yield back.
    Chairman Royce. Thank you.
    We go now to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Royce and 
Ranking Member Engel, for bringing forth these various 
bipartisan measures before us today.
    Mr. Chairman, H.R. 1918, the Nicaraguan Investment 
Conditionality Act (NICA) of 2017 is a bipartisan bill that I 
authored alongside my colleague, Albio Sires. I am also 
thankful that Mr. Duncan, chair of the Western Hemisphere 
Subcommittee, has also supported the legislation. The bill aims 
to press the Ortega regime to improve its human rights 
practices to address its problems with corruption within the 
government and increase its transparency.
    And until the government starts implementing some reforms, 
there should be no reason for the United States to support the 
Ortega regime receiving more cash while it continues to violate 
human rights, ignores the rule of law, and perpetuates 
fraudulent elections. The U.S Congress has passed bills which 
have become law, imposing similar conditions on El Salvador, 
Honduras, and Guatemala, and they have been effective in moving 
these countries in the right direction.
    The NICA Act seeks to do the same with Nicaragua. If the 
electoral system is not changed in Nicaragua, the fraud 
orchestrated by Ortega will continue, and let us not forget 
that Ortega invited the Russians into Nicaragua, has let them 
set up operations there to undermine U.S. national security 
interests and it is Ortega who has been leading the charge at 
the Organization of American States to undermine our efforts to 
hold the Venezuelan regime accountable.
    So passing this measure is the right thing to do because 
the time to take action in support of the people of Nicaragua 
and their democratic future is now.
    The House already passed a similar version of this bill 
last Congress. Let us make sure that this becomes law.
    And the next bill, Mr. Chairman, the Reauthorization of 
North Korea Human Rights Act--I first authored it in 2004. It 
has been an important piece of our U.S.-North Korea policy ever 
since. I am proud to lead the law's reauthorization in 2008 and 
then again in 2012, and I am thankful to Ranking Member Engel 
for being our Democratic lead on this bill.
    Thank you to Chairman Yoho and Ranking Member Sherman for 
also joining us in introducing this measure. This bill ensures 
that essential tools for promoting North Korea human rights 
continues to be available, including grants for advancing human 
rights, democracy, and rule of law, humanitarian assistance for 
North Korean refugees, defectors, migrants, orphans, and women 
victims of trafficking, and continued reporting by the special 
envoy for North Korea human rights issues.
    I also want to thank Chairman Yoho for his leadership and 
his important amendment which makes some valuable additions to 
the bill, including adding new methods of communication so that 
North Koreans can be aware of their inherent rights and their 
absent freedoms.
    I want to briefly express my support for Ted Deutch's and 
Gus Bilirakis' resolution, House Resolution 359. Because the 
idea that somehow a terrorist group can be split into a 
military wing and a political and that somehow one part is a 
terror group yet another is not is beyond absurd.
    Iran is a state sponsor of terror. Hezbollah is its biggest 
tool. There can be no justification for this bifurcation.
    And, finally, briefly to express my support for Ron 
DeSantis' resolution in support of the Venezuelan people. Mr. 
DeSantis has been a real champion in this.
    The deteriorating situation in Venezuela is unacceptable 
and I am grateful that the administration took action yesterday 
to sanction regime officials in anticipation of the illegal 
Constituent Assembly planned for this Sunday.
    We have to keep the pressure on Maduro, staying in 
solidarity with the people of Venezuela as they continue with 
their quest for freedom, democracy, and fundamental human 
rights. So thank you to Mr. DeSantis.
    And I yield back, Mr. Chairman.
    Chairman Royce. I now recognize Mr. Connolly to speak on 
today's bills.
    Mr. Connolly. Thank you, Mr. Chairman. I am pleased to 
support all of the bills in front of us en bloc and 
congratulate all of our colleagues for their fine efforts.
    I thank you and Mr. Engel for your leadership of bringing 
these bipartisan measures before us. Would that all committees 
in the Congress could have such comity as we have today.
    I would like to speak to one of those bills in particular, 
which is H.R. 2061, the North Korea Human Rights 
Reauthorization Act of 2017. I want to thank my friend, Ileana 
Ros-Lehtinen, for introducing this bill, the Korean Human 
Rights Reauthorization Act.
    The North Korean regime has conducted 17 ballistic missile 
tests in 2017 alone, including the July 4th launch of an 
intercontinental ballistic missile capable of reaching Alaska. 
The United States, the Republic of Korea, and other regional 
stakeholders must demonstrate a commitment to addressing this 
threat.
    At the same time, it is vital that our North Korea policy 
be informed with an understanding that there are human victims 
of the ongoing conflict on the peninsula who reside on both 
sides of the 38th Parallel. This bill responds to that 
imperative by reauthorizing the Human Rights Act of 2004 and 
prioritizing the protection of North Korean refugees and 
defectors.
    I want to thank Ms. Ros-Lehtinen for working with me on an 
amendment we adopted to H.R. 2061 that requires a report on 
ongoing or planned efforts regarding the repatriation of 
members of the United States Armed Forces, the reunification of 
Korean Americans with relatives in North Korea, and an 
assessment of security risks posed by travel to North Korea for 
U.S. citizens. And, of course, we now have a ban on such 
travel.
    The division of North and South Korea along the 38th 
Parallel offers one of the world's most striking dichotomies. 
Yet, on both sides of the DMZ resides a shared pain. The pain 
is that of families ripped apart by the Korean War and an 
enduring division of one people into two countries.
    Reunions are a welcome respite from that separation but, in 
the end, provide yet another reminder that family reunification 
on the peninsula is all too fleeting. Many of these Americans, 
more than 100,000 according to the last estimate, have been 
waiting to reunite with their family members in North Korea, in 
some cases since the armistice or the cease fire of the Korean 
War 60 years ago. Too many have already passed away without 
realizing that fervent hope that they would see the faces of 
their loved ones one more time.
    This amendment would require an update on efforts to 
conduct family reunification for those Korean-Americans. It 
would also help heal old wounds by addressing the issue of 
repatriation of members of the U.S. Armed Forces who have been 
missing since the Korean War 60 years ago.
    I thank the chair, thank all of my colleagues for their 
hard efforts, and I yield back.
    Chairman Royce. Thank you.
    I now recognize Mr. Smith to speak on today's bills.
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me, first of all, thank you for co-sponsoring, and 
Eliot Engel, a resolution that Karen Bass and I put together--
H. Res. 128--and I want to thank Mike Coffman for his 
leadership--it has been extraordinary--on this resolution as 
well. Thank you, Mike.
    This resolution is like a mirror held up to the Government 
of Ethiopia on how others see them and it is intended to 
encourage them to move on reforms.
    Ethiopia is an important ally and partner in international 
peacekeeping. However, the continuing violations of human 
rights are absolutely unacceptable.
    I would note that the Country Reports on Human Rights 
Practices couldn't be more clear, put out by the U.S. 
Department of State, and they cite serious human rights 
violations including arbitrary arrests, killings, and torture 
committed by security forces, restrictions on freedom of 
expression and the freedom of association, politically-
motivated trials, harassment, and intimidation of opposition 
members and journalists. And when you read the report, it is 
like an indictment against the Government of Ethiopia.
    Let me say to my colleagues that just yesterday I sent a 
letter to the U.S. Citizenship and Immigration Services on 
behalf of Demssew Abebe to get his family humanitarian parole 
to enter the United States and to remove the threats expressed 
to them by government forces.
    Demssew was a track star, a world-class track star, who was 
tortured by the Ethiopian security forces in a way that made 
his ability to run go away. They tortured him on his feet so he 
couldn't run.
    I mean, that is so despicable and it is just part of what I 
think is a very malevolent attitude toward people who disagree 
with them on human rights.
    I spoke to him in person on this. We had him at a press 
conference, and again, his story was absolutely compelling.
    Another victim of government torture, Abaguya Deki, 
testified at our subcommittee's hearing on Ethiopia on March 
9th. Abaguya is disabled and headed a government organization 
for disabled persons in Ethiopia.
    When he refused to join the ruling party or to sign off on 
what he described as the misuse of donated equipment for 
disabled people, he was jailed and made to crawl around his 
cell without his wheelchair, and in a subsequent imprisonment 
he was taken from his cell and left in a forest without his 
wheelchair to die, vulnerable to wild animals. Fortunately, he 
was able to set a fire and was saved by some kind people who 
spotted the fire and came to his aid.
    These are not actions of a government that respects human 
rights as they say they do and they have a very good PR 
campaign, I have to admit. But it is all about the deeds, not 
the words, and the deeds, again, continue to be, I think, 
egregious.
    My staff and I--Greg Simpkins and I--first traveled on one 
of the many trips to Ethiopia in 2005 and I can tell you, we 
had been trying to get this government to respect fundamental 
human rights and one of the findings or the sense of Congress 
statements is that we want individuals to be held accountable 
for gross violations of human rights in Ethiopia through 
appropriate mechanisms, including using the new Global 
Magnitsky Human Rights Accountability Act to hold those 
individuals to account.
    Again, I want to thank the 50 members how have co-sponsored 
and I do hope the members will support the resolution.
    Chairman Royce. Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    I would like to join my colleagues in expressing support 
for all of the measures before us today and to join all who 
have already expressed their appreciation for the bipartisan 
leadership of this committee from our chairman and our ranking 
member.
    I would like to especially thank the chairman for bringing 
forward my resolution urging the EU to designate Hezbollah as a 
terrorist organization and I thank the members of this 
committee on both sides of the aisle who have co-sponsored this 
legislation.
    Mr. Chairman, in 2013 the EU designated Hezbollah's 
military wing but not its political wing as a terrorist 
organization. This is a false distinction. Hamas in Gaza, ISIS 
in Iraq and Syria--they both administer government services. 
But the EU, no one would ever suggest that they aren't 
terrorist organizations.
    Hezbollah is a terrorist organization--one unified 
terrorist organization. It has one leader, Hasan Nasrallah, a 
U.S.-designated terrorist, who even before becoming leader of 
Hezbollah was directly involved in attacks, hostage taking, and 
airline hijacking.
    Hezbollah was responsible for the 1983 bombings in Beirut, 
one on the U.S. Embassy that killed 17 Americans and 46 others, 
and one on the U.S. Marine barracks that killed 241 American 
Marines and dozens of French service members. Hezbollah killed 
23 more Americans the following year in an attack on the U.S. 
Embassy annex in Beirut, and then in 1985 summarily executed a 
U.S. Navy diver during the hijacking of TWA 847.
    Hezbollah is also responsible for the 1992 Israeli Embassy 
bombing in Argentina, which killed 29 people, and the 1994 
bombing of a Jewish center in Buenos Aires that killed 85 
people. In 1996, Hezbollah killed 19 more U.S. service members 
in the Khobar Towers bombing in Saudi Arabia, and 5 years ago 
this month a Hezbollah suicide bomber blew up a bus in 
Bulgaria, killing six Israelis and Bulgarians. And thousands of 
Hezbollah fighters at the direction of Iran have now been sent 
to Syria to prop up the brutal Assad regime, which is 
responsible for hundreds of thousands of deaths.
    Iran's leaders seek to cement Hezbollah's hold on parts of 
Syria so there is a direct line to Hezbollah in Lebanon and to 
add to its arsenal over 150,000 rockets at every corner of 
Israel.
    This is not an organization that should be allowed to skirt 
the consequences of its terrorist activity by parading as a 
political entity.
    Last year, the Gulf Cooperation Council and the Arab League 
both designated Hezbollah a terrorist organization. I urge our 
European friends to take note and to finally designate 
Hezbollah without artificial distinction as a terrorist 
organization.
    The EU's designation of Hezbollah's military wing has 
already enabled substantial cooperation with the United States 
to uncover and to thwart Hezbollah's international criminal 
activities including drug trafficking, counterfeiting, and 
money laundering, and we appreciate that cooperation. The full 
designation, though, would allow for significantly improved 
cooperation to freeze Hezbollah's assets in Europe and prohibit 
fund-raising activities in support of Hezbollah, all to help 
prevent more devastating terror attacks by this terrorist 
organization.
    I urge my colleagues to join me in sending this important 
message to our European friends and allies, and I yield back 
the balance of my time.
    Chairman Royce. I recognize Mr. Rohrabacher of California 
to speak on today's bills.
    Mr. Rohrabacher. Thank you very much. I rise in support of 
the bills that have been presented to us today. I especially 
would like to focus on a number of areas.
    Ethiopia, for example--I want to congratulate Chairman 
Smith on a great job of analyzing the type of tyranny that is 
evident in Ethiopia. This is a corrupt regime that is also 
oppressive and brutal with its own people.
    Let me note that its corruption spills beyond its own 
borders. We have U.S. citizens whose property was confiscated 
by the Ethiopian Government and, arrogantly, the Ethiopian 
Government expects the U.S. to continue in a good relationship 
with it and perhaps even giving some type of aid to Ethiopia 
when it actually has stolen property that it refuses to give 
back to U.S. citizens.
    I know that personally because we have a very prominent 
family in Orange County, California, whose property was 
confiscated and after continuing to try they get nowhere after 
years of attempting.
    But that property damage and property theft is nowhere near 
as offensive to our values as is the murder and repression and 
the torture that goes on in Ethiopia. What we have is a 
dictatorship that knows no bounds. So I appreciate this bill.
    I also would like to note that Venezuela keeps sinking 
further, further into the depths of tyranny and injustice. Let 
us hope that while the situation is still fluid enough that we 
stand with the people of Venezuela in creating a real democracy 
there rather than these tough guy leftists who love Fidel 
Castro and other lowlife dictators who then serve as their 
model.
    And finally, about Hezbollah--I identify myself with the 
remarks that were just made by my colleague about Hezbollah.
    Look, it is time for the Palestinians to understand peace 
is in their hands and they have the ability to make peace with 
Israel. There was a two-state solution that was accepted and 
there was great hopes for that. But it is the continuing 
violence against Israel--organized violence against Israel that 
is destroying any chances for peace in that region, and we 
cannot blame Israel for retaliating against forces that are 
killing their own people and shooting rockets into their 
country.
    So today we are reaffirming that Hezbollah should be 
designated as a terrorist organization as it continues to push 
for war and continues to kill innocent people.
    Let me just note that there was a hearing here--I believe 
it was yesterday--in which we were talking about Qatar, and one 
of the things they said about Qatar was the good was that they 
helped rebuild destruction in Gaza. That is not a pro-peace 
solution and in fact Qatar's rebuilding those buildings that 
had been destroyed in retaliation for the missile attacks and 
rocket attacks on Israel only encourages more missile attacks 
on Israel.
    So Hezbollah and Hamas and the other Palestinian 
organizations that are active in that part of the world, we 
must be very clear that we want peace. We want them to make 
peace with the rest of the world and they are not doing so and 
they are conducting themselves in a way that they should become 
the pariahs of decent peoples and countries throughout the 
world.
    That whole notion is something that runs through this list 
of resolutions. I want to thank the chairman and I want to 
thank the ranking member for helping focus this committee with 
this--you know, with our basically bipartisan support on these 
type of values.
    So thank you very much, Mr. Chairman, and I rise in support 
of these resolutions.
    Chairman Royce. Thank you.
    We go to Lois Frankel of Florida on today's bills.
    Ms. Frankel. Thank you, Mr. Chair, and I want to thank you, 
the ranking member, and all the members who have participated 
in putting together these very fine bills, which I proudly co-
sponsor some of them.
    I really wanted to make a comment on three of those. The 
first, on urging the European Union to designate Hezbollah in 
its entirety as a terrorist organization and increase pressure 
on it and its members, so I am going to try--I am going to 
start with an analogy. It is probably not the best one but 
maybe my colleague here can help me figure out a better one.
    But I came in here today and I saw a bottle of water, which 
is pretty good. You can drink the water but when you think 
about it what is water made out of? Hydrogen and oxygen. Is 
that right?
    So, to me, and I don't think you can have water without the 
hydrogen or the oxygen, and to me this is what this resolution 
is.
    I know it is an analogy. I am not sure if it is that great. 
But I think--you all tell me, all right? Yes. You know, to try 
to separate the political and the military wing of Hezbollah, 
to me, is like saying, well, you know, separating the hydrogen 
and oxygen is saying, well, you have water. Okay. I think you 
get what I mean.
    My colleagues have made a lot of good comments about this. 
I think that the piece that I want to stress is how Hezbollah 
is really being used as a proxy by what I think many of us 
consider one of the most if not the most dangerous country in 
the world and that is Iran, which is trying to take over Iraq, 
Syria, to name a couple of countries--Yemen. They are 
destabilizing and dangerous in many areas that we are very, 
very concerned about and so they have to be stopped. And I 
think this resolution goes toward that direction.
    On what I would hope is a more positive note of inspiration 
is our urging or our resolution to work with displaced children 
toward education.
    You know, in reading about it, I think there is about 25 
million of the world's out of school children who are in 
conflict zones. Think about that.
    What does that mean? We are talking about a lost 
generation, and here is what is happening. Not only are the 
kids not getting educated but here is what is happening. We 
will use Syria as an example. They are not only not getting 
educated but the number of young girls who are now forced into 
child marriage has doubled from 12 to 26 percent. I mean, you 
imagine 12-year-olds, 14-year-old girls being forced to get 
married.
    You have child labor rapidly increasing in very illegal and 
unsafe conditions and I think as important is a complete lack 
of hope for young people. What happens to young people when 
they have no hope, no education, no potential of a real job 
other than maybe 1 day joining some terrorist organization or 
being the victims of one? So I thank this committee for that 
resolution on education.
    And then I know Ms. Bass is not here but I also want to say 
something about urging Kenya to have a fair and safe election. 
Some of us will be traveling to the region to monitor that 
election and I wish us well on that.
    But I think it is very important for us to support 
democracies and fair election anyplace in this world. And with 
that, Mr. Chair, I yield back.
    Chairman Royce. Mr. Steve Chabot of Ohio on today's bills.
    Mr. Chabot. Thank you, Mr. Chairman, and thank you for 
holding this important markup. I support all the bills. I will 
focus on one in particular.
    It has become apparent that the challenges that many girls 
across the globe face are daunting. Many of those difficulties 
begin at birth when millions of children, mostly girls, are not 
properly registered. They don't have birth certificates, making 
it easier for those children to disappear in human trafficking 
networks or be coerced into a childhood marriage, as Ms. 
Frankel just indicated, or forced labor.
    That is why in the House Betty McCollum and myself, in a 
bipartisan way, and Marco Rubio and Senator Shaheen over in the 
Senate introduced legislation to bolster efforts to develop 
birth certificates and national registries for children in 
developing countries. That legislation was passed by this 
committee, it was passed by both Houses, and President Obama 
signed it into law. That was about 2 years ago.
    However, another equally important aspect of the problem 
facing girls, as Ms. Frankel just indicated, is access to 
education. As a former teacher, myself, in an inner city school 
I've seen firsthand how education empowers children.
    Unfortunately, millions of children receive no education 
due to circumstances beyond their control. This is particularly 
true for the growing number of displaced people around the 
world as it is exceedingly difficult for children in conflict 
zones to receive a primary or a secondary education.
    Armed conflicts across the world, particularly in places 
like Syria, South Sudan, and others have resulted in the 
internal displacement of millions of women and children and 
forced them to literally flee their homes.
    Education is one of the key components in helping lift this 
most vulnerable population out of the depths of poverty and the 
difficult circumstances that they are facing. Access to 
education not only gives children the opportunity to grow and 
learn but also offers safety and shelter from the violence that 
is going on and the circumstances around them, safety from 
extremist ideology and human trafficking networks and a 
horrible cycle of abuse.
    Simply stated, access to education provides stability and 
consistency to children living in extremely unstable 
conditions, especially girls. Boys also are involved in this 
but girls are particularly vulnerable to this.
    It is our responsibilities as leaders of the free world to 
step up and ensure that education, a basic right, is accessible 
to all.
    I want to thank my colleague on the other side of the 
aisle, Robin Kelly of Illinois, for her leadership in 
introducing the legislation--one of the pieces that we are 
discussing here this morning, H.R. 2408, the Protecting Girls' 
Access to Education Act.
    It will move us in the right direction by calling on the 
Secretary of State and U.S. AID, previously known as USAID--I 
still have a hard time, whether it is U.S. AID, USAID. USAID 
makes more sense but if you've been around here a while like I 
have, sometimes you struggle with that one. But USAID now--to 
prioritize access to primary and secondary education.
    It aims to directly benefit displaced children, 
specifically girls, and will help to address one of the world's 
biggest challenges facing refugees. This legislation also 
encourages greater international coordination and promotes 
needed education for refugees where they are through local 
schools.
    The Protecting Girls' Access to Education Act will ensure 
that millions of child refugees will have an opportunity to 
reach their highest potential, even those in the most dire 
conditions.
    So I, again, want to thank my colleague, Robin Kelly, for 
her hard work on this legislation and hopefully we can continue 
to work on things down the road because, as the chairman knows, 
this is one committee that really does work in a bipartisan 
fashion.
    I wish the rest of the Congress did it. The other committee 
that I happen to chair, the House Small Business Committee with 
Nydia Velazquez, we actually work in a pretty bipartisan way as 
well.
    So the rest of the Congress should model themselves after 
those two committees.
    So with that, I will yield back.
    Chairman Royce. Thank you.
    Tulsi Gabbard of Hawaii to speak on today's bills.
    No? We then go to--Norma Torres, I think, is next in the 
queue. All right. Who seeks recognition? Joaquin Castro of 
Texas.
    Mr. Castro. Thank you, Chairman.
    I want to thank all of the members whose bills are being 
considered before us today.
    Representative Wagner and I co-founded the Congressional 
Caucus on ASEAN earlier this year to deepen the United States 
and Congress' engagement with Southeast Asia.
    ASEAN, as you know, serves as an example of successful 
regional cooperation. The nations of Southeast Asia, despite 
distinct histories, cultures, and religions have placed their 
faith in cooperation rather than conflict.
    U.S. security interests in Southeast Asia are wide ranging 
and supported by many regional partners. Members of ASEAN have 
worked closely with the United States to address mutual 
security concerns.
    Two members--the Philippines and Thailand--are treaty 
allies of the United States. Singapore and the United States 
cooperate closely to safeguard the maritime passageways of 
Southeast Asia and maintain a rules-based order in the Asia 
Pacific region.
    U.S. relationships with other ASEAN members such as Vietnam 
have grown in recent years as we not only acknowledge our past 
but also partner for a brighter future the member states of 
ASEAN hold significant economic promise and our economic 
relationship underpins much of U.S. engagement with the region.
    My home state of Texas exports over $13 billion worth of 
goods to ASEAN countries each year. These exports support over 
70,000 Texas jobs and over 500,000 jobs across the United 
States.
    The U.S.-ASEAN relationship is also built on history and 
cultural exchange. Millions of Americans can trace their family 
roots to the countries of ASEAN including over 400, 000 Texans.
    Tourism to and from ASEAN exposes hundreds of thousands of 
people to our cultures and communities across the Pacific. 
Language, literature, food, and music link our cultures across 
the ocean, set roots, and enrich both of our societies.
    House Resolution 311, the resolution we are considering 
here today, is part of America's continuing engagement with 
ASEAN. It commemorates the 50th anniversary of the founding of 
ASEAN and I am proud to present it here today.
    Thank you.
    Chairman Royce. Is Mr. Duncan seeking recognition?
    Mr. Duncan. Thank you, Mr. Chairman.
    Just a few quick words. I want to thank you and the 
committee for continuing to stand up for the people of 
Venezuela against oppression.
    I want to commend Mr. DeSantis for his Resolution 259, 
which I fully support, and I appreciate the president talking 
about sanctions yesterday and continuing to point out how bad a 
Constituent Assembly would be in the face of democratic 
principles that should be in place in Venezuela.
    I also want to thank the committee for its continued 
efforts to support democracy and human rights all across the 
globe, not just in Venezuela but anywhere that human rights are 
violated.
    On the Canada Resolution 357, the time is right to reaffirm 
our partnership with our close friends and Canada is our best 
friend. They are our second largest trading partner. The 
strategic alliances that we have with our friends to the north 
are important and this resolution reaffirms that.
    Thirdly, I want to point out that Hezbollah is a terrorist 
organization and anytime we can point that out and point out 
the fact that they are backed by Iran--and neither Iran nor 
Hezbollah has America's best interest at heart. We should 
encourage our allies, whether they are in Europe or anywhere 
they may be, to point out that Hezbollah is a terrorist 
organization. So I commend and even support the words of Ms. 
Frankel.
    And with that, Mr. Chairman, this is a good markup with a 
good slate of bills and I look forward to supporting them all.
    I yield back.
    Chairman Royce. Thank you, Mr. Duncan.
    Any other members seeking recognition?
    Mr. Brad Sherman of California on today's bills.
    Mr. Sherman. I want to commend the chair and the ranking 
member for bringing to us nine well-crafted bipartisan bills. I 
want to commend the authors of each of them.
    I particularly want to thank the committee for focusing at 
the full committee level on human rights in east Africa. My 
wife works on that every day at the State Department and it is 
good that I can go back and tell her that I am also doing my 
part.
    In particular, I want to praise the chair of the Africa 
Subcommittee, Mr. Smith, and I would lavishly praise the 
ranking member, Karen Bass, if she were here, and in any case, 
the work of that subcommittee is to be commended.
    I want to associate myself with Ted Deutch's remarks about 
Hezbollah. This is an international terrorist organization and 
no one in Europe should be fooled into thinking that it is a 
Lebanese political party or that you can separate the actions 
of the political wing from the military wing, which is like 
blaming some of the fingers but not all of the fingers on the 
hand that holds the gun and shoots the innocent person.
    Keep in mind that Hezbollah has done more than any other 
organization that I--perhaps but along with Russia and Iran to 
support Assad's tyranny in Syria kill nearly 500,000 people and 
create a refugee crisis that Europe is suffering from. Perhaps 
if Europe had dealt with Hezbollah effectively in the past 
Europe would not face the refugee crisis that it faces today. 
We can't be sure.
    As ranking member of the Asia Subcommittee, I commend to 
the full committee two bills on Asia and thank Chairman Yoho 
for his leadership of that subcommittee.
    The first deals with North Korean human rights. I want to 
commend our former chair of the full committee, Ileana Ros-
Lehtinen, and I also support Chairman Yoho's amendment to 
authorize the President to distribute or provide grants to 
provide information-receiving devices--electronically reachable 
devices. So many North Koreans get their information smuggled 
in through devices that simply didn't exist 10 or 20 years ago.
    Finally, I should commend the gentleman from Texas, Mr. 
Castro, for his bill on ASEAN.
    And with that, I yield back.
    Chairman Royce. Mr. Yoho of Florida on today's bills.
    Mr. Yoho. Thank you, Mr. Chairman.
    I want to share my support for H.R. 2061, the North Korean 
Human Rights Reauthorization Act of 2017. I commend Chairman 
Emeritus Ros-Lehtinen for leading this reauthorization effort 
as she has done in the past.
    The substitute amendment I have offered for this 
legislation reflects the work performed at the subcommittee 
markup and I thank my colleagues on the Asia Pacific 
Subcommittee for joining me to move this legislation forward in 
the legislative process.
    The horrific human rights abuses committed by Kim Jong-Un 
are an integral part of his power structure. Countering these 
unspeakable crimes however we can is both a moral imperative 
and sound strategy.
    I have also offered a second amendment to this legislation 
and I thank Chairman Royce and Ranking Member Engel for 
including it in today's en bloc package.
    This amendment will attach the distribution and promotion 
of Right to Knowledge Act to today's reauthorization. 
Importantly, this amendment will expand the authority of the 
President and the Broadcasting Board of Governors to transmit 
and distribute information inside North Korea, one of the 
surest ways to weaken Kim's regime's grip on power.
    The two bills are natural partners and represent an 
important step to promote human rights and the free flow of 
information in North Korea.
    Again, I thank the chairman and ranking member, and yield 
back.
    Chairman Royce. Thank you.
    We go to Brad Schneider of Illinois to speak on the bills.
    Mr. Schneider. Thank you, Chairman Royce.
    I want to thank Chairman Royce and Ranking Member Engel for 
holding this markup today. I appreciate the consideration of 
these bipartisan pieces of legislation that address key foreign 
policy issues and I am proud to add my voice to those of my 
colleagues in supporting these measures.
    I am particularly pleased that today we are marking up 
House Resolution 359, which I am honored to cosponsor with my 
colleagues. This resolution urges the European Union to 
designate Hezbollah in its entirety as a terrorist 
organization.
    The EU designated Hezbollah's military wing as a terrorist 
organization in 2013 and has made notable progress in 
countering Hezbollah activities.
    But more must be done. As the resolution states, we urge 
the EU to take practical and tangible steps to reduce the 
terrorist threat posed to the United States, Europe, Israel, 
and our other allies in the Middle East by Hezbollah.
    For example, increasing cross-border intelligence sharing, 
freezing Hezbollah's assets, prohibiting Hezbollah fund-raising 
activities, and issuing arrest warrants for Hezbollah members 
and supporters in Europe would not only send a strong message 
but it would have a concrete impact, inhibiting the ability of 
Hezbollah to operate with impunity.
    Let us be clear. There is no distinction between the 
military and political wings of Hezbollah. They are part and 
parcel of the same entity and that is a terrorist organization 
that threatens the United States and our allies and contributes 
to the instability in the Middle East and the suffering of 
millions of people.
    I am also proud to co-sponsor H.R. 2061 that reauthorizes 
the North Korean Human Rights Act of 2004, extending its 
provisions until 2022.
    While North Korea poses a grave and growing threat to the 
security of the United States, those who suffer most at the 
hands of the brutal regime of Kim Jong-Un are the North Korean 
people themselves who lack basic freedoms, are subject to 
torture and oppression, and are denied access to the basic 
goods and services.
    This bill also authorizes support for democracy and 
governance and humanitarian assistance programs for North Korea 
in recognition of the vital role that our diplomacy and 
development programs play in addressing conflict situations.
    In addition, I offer my support for the other pieces of 
legislation being marked up today supporting human rights and 
democratic elections, protecting vulnerable women and girls, 
and reaffirming the United States' enduring bilateral and 
multilateral relationship with allies around the world.
    The national security of the United States rests upon three 
pillars--defense, diplomacy, and development.
    We must ensure that our foreign policy continues to use all 
of the tools available to us in appropriate balance with each 
other.
    Indeed, these pieces of legislation exemplify how crucial 
it is that we maintain robust support for the Department of 
State and the U.S. Agency for International Development so that 
they can continue to advance our national priorities and 
sustain our position as a global leader in democracy, human 
rights, poverty alleviation, and defense of the world's most 
vulnerable populations.
    I would like to thank the committee again for considering 
these important and relevant bills, and with that, I yield 
back.
    Chairman Royce. Thank you.
    We go to Mr. Ted Poe of Texas on today's bills.
    Mr. Poe. Thank you, Mr. Chairman.
    I would like to comment on two of these pieces of 
legislation. First, the North Korea Human Rights 
Reauthorization Act. If we look around the world there is no 
greater violator of human rights than North Korea. The people 
of that country live in a life of hopeless slavery and they are 
denied nearly all the basic human rights that most countries 
believe in. Freedom of expression, freedom of religion, and 
freedom of movement are nonexistent in the kingdom of North 
Korea.
    Little Kim and his cronies have absolutely no concern for 
human life and decency. Hundreds of thousands of North Koreans 
are held in camps for political prisoners. In many cases, three 
generations of the same family are detained together in these 
prison work camps. They are routinely beaten, they are 
tortured, and if they are not executed, many die from 
starvation. Live births are prohibited in these prison camps. 
Forced abortions, killing of the newborn babies, are standard 
procedure in North Korea in these prison camps.
    The North Korean regime is not content simply with 
controlling these camps. Little Kim is a paranoid dictator. He 
and his fathers have tried to control all aspect their people's 
lives, even their beliefs. According to the regime, only the 
Kim family should be worshiped and they expect that. Christians 
are particularly singled out for persecution. Bibles are 
outlawed. A person can be thrown in jail for professing any and 
all religious beliefs.
    The people of North Korea suffer on a scale not imaginable 
anywhere in the world today. Two million people--two million 
people have died of starvation since the 1990s. Nearly one out 
of every 10 children suffers from malnutrition and 4 out of 10 
are chronically malnutritioned.
    These tragic figures are the direct result of decisions of 
the North Korean regime. Their slavery of their people does not 
just include the borders of North Korea.
    North Korea takes people in North Korea and sells them on 
the marketplace of slavery to other countries like China and 
sends their workers to China where they work and the money that 
is paid to the workers never goes to the workers. It goes to 
the Government of China. China is complicit in this slave trade 
and the slavery of humans from North Korea going to its 
country.
    The world basically did away with slavery many, many years 
ago but yet we see it raising its ugly head again in Little 
Kim's regime.
    It is amazing to me what a country can do to its own 
people. I think we are morally and legally obligated on behalf 
of those people who cannot help themselves and we can't just 
watch while millions starve to death.
    I support this reauthorization of the North Korean Human 
Rights Act. I commend my colleague, the gentlelady Ros-
Lehtinen, for her work. North Korean people deserve basic 
humanity.
    The other issue that I'd like to mention is the Hezbollah 
bill, 359, and encouraging our European friends to recognize 
them as a terrorist organization.
    Historically, if we look at Europe especially since the 
'30s, they are late coming to the table to realize threats to 
their own nation and their own continent. And then Europe tries 
to act, sometimes successfully, sometimes not, to threats that 
are obvious from outsiders.
    And I would hope that Europe understands that Hezbollah is 
a threat to them--that they are not, as my friend, Mr. Sherman 
said from California, a political organization. They are a 
terrorist organization that does things politically as well.
    So I hope they realize the importance of working with the 
United States on Hezbollah. Hezbollah is in many places in the 
world, not just one place, and Hezbollah is funded from the 
number-one terrorist state in the world out of 195 countries 
and that is the country of Iran.
    Europe needs to recognize the threat within their own 
borders and they need to do it as soon as they can, and that is 
just the way it is, Mr. Chairman.
    I will yield to you.
    Chairman Royce. Thank you. Thank you for yielding back, Mr. 
Poe.
    I think--I think our last speaker is Robin Kelly of 
Illinois on this measure.
    Ambassador Wagner, did you seek time as well?
    We go to Robin Kelly in Illinois.
    Ms. Kelly. Thank you, Mr. Chairman. I am honored to 
introduce, with Congressman Steve Chabot, H.R. 2408, the 
Protecting Girls' Access to Education Act, a bill that would 
provide all children of all genders access to quality 
education.
    I thank the chairman for including this bill in our final 
markup before August recess and I encourage all of my 
colleagues to support it.
    At the beginning of this year, 65 million people had been 
displaced from their homes, half of whom were 18 or younger. 
Too often these children are not only subject to violence and 
discrimination but they are also stripped of their basic human 
right to an education.
    The U.N. refugee agency recently reported that 4 million 
displaced children are without access to elementary school and 
88 percent of displaced children will never attend college.
    Without access to primary and secondary education these 
children become increasingly vulnerable to the most appalling 
human rights abuses. Lacking comfort and stability, displaced 
children are targeted for sex trade, abduction, child labor, 
early marriage, extreme poverty, and abuse.
    For the millions of displaced children, especially young 
girls, school may provide their only means of escape. Education 
helps children cope with trauma, avoid sexual violence, and 
transition into their new lives. The classroom environment 
gives them a sense of normalcy, community, support, and helps 
them overcome isolation and resentment.
    In addition, college and career training programs equip 
displaced students with the skills and confidence they need to 
become responsible members of their communities. For this 
reason, I have worked closely with Congressman Chabot to 
introduce H.R. 2408, the Protecting Children's Access to 
Education Act.
    With this bill, Congressman Chabot and I hope to provide 
displaced children, especially young girls, with economic, 
emotional, and educational opportunities they deserve.
    H.R. 2408 calls on the U.S. Government to collaborate with 
donors, private organizations, and other countries to include 
displaced children into the global public school system.
    Our bill supports programs that close the language barrier 
between teachers and displaced students and that train 
displaced students for college and careers.
    The Protecting Girls' Access to Education Act would 
authorize the Secretary of State and the Administrator of the 
U.S. Agency for International Development to provide efforts 
that provide safe accessible education to displaced children 
and to measure the success of these efforts.
    Most importantly, our bill would help educational 
institutions prevent discrimination against displaced children, 
especially young girls, who often become victims of bullying 
and sexual harassment.
    I also applaud Congressman Rubio and Congressman Menendez 
for introducing their companion bill in the Senate. Together, 
we have led a comprehensive bipartisan effort to improve the 
lives of displaced children. I look forward to seeing its 
enactment.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Ambassador Ann Wagner of Missouri.
    Ms. Wagner. Thank you, Mr. Chairman.
    I would like to first state my strong support for all of 
the bills that we are marking up today but I want to speak 
specifically in support of House Resolution 311, the resolution 
that I was honored to introduce with my colleague, 
Representative Castro, to commemorate ASEAN's 50th anniversary 
and the 40th anniversary of U.S.-ASEAN relations.
    Southeast Asia has tremendous cultural, political, 
historical, and religious diversity. ASEAN was formed in part 
to create a bulwark against communism in Southeast Asia among 
these diverse nations. Today, ASEAN's goals have evolved and 
the region is experiencing tremendous growth. Nearly $100 
billion of U.S. goods and services are exported to the ASEAN, 
rivaling our $113 billion market in China.
    In January, I founded the bipartisan Congressional Caucus 
on ASEAN with my friend and colleague, Congressman Castro. The 
caucus acknowledges America's special relationship with ASEAN 
and is pushing Congress forward in strengthening engagement in 
Southeast Asia.
    House Resolution 311 was one of our first initiatives and 
the resolution encourages the enhancement of economic and 
defense cooperation with ASEAN.
    It reaffirms the U.S. commitment to continue joint efforts 
with ASEAN to halt human smuggling and human trafficking and 
urges ASEAN to improve assistance to refugees and migrants.
    I am grateful that the chair and ranking member are strong 
supporters of this effort and I look forward to next seeing 
this resolution on the House floor.
    I thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you very much, Congresswoman Wagner.
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc are agreed to.
    Without objection, the measures considered en bloc are 
ordered favorably reported as amended. Staff is directed to 
make any technical and conforming changes and the Chair is 
authorized to seek House consideration under suspension of the 
rules.
    And that concludes our business here today. I thank the 
ranking member and all of our committee members for their 
contributions and assistance with this markup.
    And the committee is adjourned.
    [Whereupon, at 11:16 a.m., the committee was adjourned.]

                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
